TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                      September 23, 2010

                              Reference Number: 2010-20-094




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ANNUAL ASSESSMENT OF THE                             •   Modernized e-File – an electronic filing
BUSINESS SYSTEMS MODERNIZATION                           platform used for electronic tax return filing
PROGRAM                                                  for both business and individual taxpayers.
                                                     •   Account Management Services/Integrated

Highlights                                               Data Retrieval System – systems that
                                                         provide IRS employees with the ability to
                                                         view, access, update, and manage taxpayer
Final Report issued on September 23,                     accounts.
2010
                                                     Since July 2009, the IRS has implemented new
Highlights of Reference Number: 2010-20-094          releases of the CADE, Account Management
to the Internal Revenue Service Chief                Services, and Modernized e-File systems. Most
Technology Officer.                                  significantly, the Modernized e-File for the first
                                                     time included individual tax returns in addition to
IMPACT ON TAXPAYERS                                  business tax returns.
The Business Systems Modernization (BSM)             The IRS has refocused the BSM Program to
Program, which began in 1999, is a complex           deliver the modernized systems sooner. TIGTA
effort to modernize the Internal Revenue             is encouraged by the actions planned and taken
Service’s (IRS) technology and related business      to refocus the BSM Program, especially related
processes. The objective of the BSM Program          to the retooling of the CADE program, known as
is to address and manage the inherent risks of       the CADE 2. When successful, the CADE 2
modernization, while still delivering the level of   program will provide a significant boost to the
service American taxpayers expect.                   IRS’ ability to move away from its antiquated tax
                                                     return processing systems and provide improved
WHY TIGTA DID THE AUDIT                              service to taxpayers. However, there are
This audit was initiated as part of TIGTA’s Fiscal   significant risks involved in retooling the entire
Year 2010 Annual Audit Plan and addresses the        BSM Program and with the use of techniques
major management challenge of Modernization          and processes new to the IRS.
of the IRS. TIGTA is required to assess and          WHAT TIGTA RECOMMENDED
report annually on the progress of the IRS’
modernization activities.                            Because this was an assessment of the BSM
                                                     Program status and accomplishments through
WHAT TIGTA FOUND                                     Fiscal Year 2010, TIGTA did not offer any
The BSM Program is now in its 12th year and          recommendations. However, because of the
has received approximately $3.24 billion for         significant risks involved with the refocusing of
contractor services, plus an additional              the BSM Program, TIGTA believes the IRS
$474 million for internal IRS costs. The IRS         should continue to consider the BSM Program
originally estimated the BSM Program effort          as a material weakness until it can successfully
would last up to 15 years and incur contractor       demonstrate that the CADE 2 can operate
costs of approximately $8 billion. The three core    securely and effectively.
projects of the BSM Program, referred to as the      In its response, the Chief Technology Officer
“Pillars of Modernization,” are the:                 responded that the IRS was pleased to read
•   Customer Account Data Engine (CADE) –            TIGTA’s comments and observations that the
    the databases and related applications for       BSM Program has continued to provide new
    daily posting, settlement, maintenance,          information technology capabilities and related
    refund processing, and issue detection for       benefits to the IRS and taxpayers. The Chief
    taxpayer tax account and return data.            Technology Officer also acknowledged the IRS
                                                     is at a key point in the BSM effort and believes it
                                                     is on its way to successfully demonstrate that
                                                     the CADE 2 can operate effectively.
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 23, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:               (for)     Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Business Systems
                               Modernization Program (Audit # 201020002)

 This report presents our annual assessment of the Business Systems Modernization Program.
 The overall objective of this review was to assess the progress of the Internal Revenue Service’s
 Business Systems Modernization Program since June 2009 as required by the Internal Revenue
 Service Restructuring and Reform Act of 1998.1 This review is part of our Fiscal Year 2010
 Annual Audit Plan and addresses the major management challenge of Modernization of the
 Internal Revenue Service.
 Management’s complete response to the draft report is included as Appendix XII.
 Copies of this report are also being sent to the IRS managers affected by the report findings.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                               Annual Assessment of the
                                        Business Systems Modernization Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Business Systems Modernization Program Has Delivered
          Business Value and Benefits to Taxpayers ................................................... Page 3
          The Business Systems Modernization Program Is Being Revised
          to Deliver Improved Capabilities Sooner ..................................................... Page 6
          Delivering Planned Capabilities Is a Continuing Challenge for
          Modernization Efforts ................................................................................... Page 7
          Effective Management of Persistent Project Development Activity
          Problems Is Necessary for Success of the Modernization Program ............. Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Enterprise Life Cycle Overview .......................................... Page 19
          Appendix V – Business Systems Modernization Program Funding............. Page 21
          Appendix VI – Project Cost and Schedule Variance Analysis ..................... Page 27
          Appendix VII – Business Systems Modernization Program
          Project Accomplishments ............................................................................. Page 28
          Appendix VIII – Open Recommendations From Prior Year Reports
          Related to the Business Systems Modernization Program
          Material Weakness ........................................................................................ Page 30
          Appendix IX – Recent Treasury Inspector General for Tax
          Administration Reports on the Internal Revenue Service’s
          Modernization Program ................................................................................ Page 31
                                  Annual Assessment of the
                           Business Systems Modernization Program



Appendix X – Treasury Inspector General for Tax Administration
Assessments of the Business Systems Modernization Program ................... Page 45
Appendix XI – Glossary of Terms ................................................................ Page 54
Appendix XII – Management’s Response to the Draft Report ..................... Page 59
               Annual Assessment of the
        Business Systems Modernization Program




              Abbreviations

BSM     Business Systems Modernization
CADE    Customer Account Data Engine
CMMI    Capability Maturity Model Integration
IRS     Internal Revenue Service
MeF     Modernized e-File
TIGTA   Treasury Inspector General for Tax Administration
                                          Annual Assessment of the
                                   Business Systems Modernization Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of IRS information technology. This report provides our assessment of the IRS
Business Systems Modernization (BSM) Program from June 2009 through June 2010.
Recognizing the long-term information technology commitment required to support the IRS’
mission, Congress created a special Modernization Program account in Fiscal Year 1998. The
BSM Program, which began in 1999, is a complex effort to modernize the IRS’ technology and
related business processes. This effort involves integrating thousands of hardware and software
components. All of this is being done while replacing outdated technology and maintaining the
current tax system.
Factors that characterize the IRS’ complex information technology environment include widely
varying inputs from taxpayers (from simple concise records to complex voluminous documents),
seasonal processing with extreme variations in processing loads, transaction rates on the order of
billions per year, and data storage measured in trillions of bytes.2 The BSM Program is working
toward addressing Congress’ intent of improved benefits to taxpayers that include:
    •    Issuing refunds, on average, 5 days faster than existing legacy systems.
    •    Offering electronic filing capability for large corporations, small businesses, tax-exempt
         organizations, and partnerships, with dramatically reduced processing error rates.
    •    Delivering web-based services for tax practitioners, taxpayers, and IRS employees.
    •    Providing IRS customer service representatives with faster and improved access to
         taxpayer account data with real-time data entry, validation, and updates of taxpayer
         addresses.
While the BSM Program encompasses dozens of projects and systems, the core projects that the
IRS refers to as the “Pillars of Modernization” are the:
    •    Customer Account Data Engine (CADE) – the databases and related applications that
         include applications for daily posting, settlement, maintenance, refund processing, and
         issue detection for taxpayer tax account and return data.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix XI for a glossary of terms.
                                                                                                              Page 1
                                           Annual Assessment of the
                                    Business Systems Modernization Program



      •    Modernized e-File (MeF)/e-Services – an electronic filing platform used for electronic
           filing of tax returns for both business and individual taxpayers.
      •    Account Management Services/Integrated Data Retrieval System – systems that provide
           IRS employees with the ability to view, access, update, and manage taxpayer accounts.
The IRS originally estimated the BSM Program effort would last
up to 15 years and incur contractor costs of approximately
                                                                                      The IRS planned to
$8 billion. The BSM Program is now in its 12th year and has                              complete the
received approximately $3.24 billion for contractor services, plus                 Modernization Program
an additional $474 million for internal IRS costs. Appendix V                       in 15 years at a cost of
presents an analysis of BSM Program funding since its inception.                   approximately $8 billion.

The compilation of information for this report was conducted at
the TIGTA office in Laguna Niguel, California, during the period May through July 2010. The
information presented in this report is derived from TIGTA audit reports issued since June 20093
and the Government Accountability Office report on the BSM Program’s Fiscal Year 2010
Expenditure Plan.4 These previous audits and our analyses were conducted in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our conclusions based on our audit objective. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
    Appendix IX presents the TIGTA reports used in formulating this Modernization Program assessment.
4
    Internal Revenue Service’s Fiscal Year 2010 Expenditure Plan (GAO-10-539, dated May 2010).
                                                                                                        Page 2
                                        Annual Assessment of the
                                 Business Systems Modernization Program




                                    Results of Review

The Business Systems Modernization Program Has Delivered
Business Value and Benefits to Taxpayers
The BSM Program has continued to provide new information technology capabilities and the
related benefits to both the IRS and taxpayers. Since July 2009, the IRS has implemented new
releases of the CADE, Account Management Services, and MeF systems—the “Pillars of
Modernization.”

Customer Account Data Engine
The CADE is a major component of the BSM Program. It consists of modernized databases and
related applications that work in conjunction with the IRS Master File system.
Our post-implementation review5 of CADE Release 4 showed that it accurately processes and
records tax return and tax account information. The CADE project team successfully
implemented Release 4 requirements that enable the system to more successfully accept, record,
and process tax return information. With the additional capabilities provided by Release 4, the
CADE system processed more than 40.2 million tax returns (approximately 30 percent of all
individual tax returns filed) and generated approximately $58.9 billion in refunds in Calendar
Year 2009. This is a significant increase over the 30 million tax returns processed in Calendar
Year 2008.
CADE Release 5.2 was deployed in January 2010 to incorporate Tax Year 2009 tax law changes
affecting individual taxpayers and to provide technical improvements to the infrastructure and
availability of the CADE system. From January through May 2010, the current CADE system
processed approximately 40.5 million tax returns (approximately 31 percent of all individual tax
returns filed) and issued 35.4 million refunds totaling about $65.6 billion.

Account Management Services
The Account Management Services system provides IRS employees with the tools to access
information quickly and accurately in response to complex customer inquiries. The Account
Management Services Release 2.1 final milestone was completed in February 2010 and provided
all users the ability to view correspondence images online and on demand. From its February


5
 Customer Account Data Engine Release 4 Includes Most Planned Capabilities and Security Requirements for
Processing Individual Tax Account Information (Reference Number 2009-20-100, dated August 28, 2009).
                                                                                                     Page 3
                                            Annual Assessment of the
                                     Business Systems Modernization Program



deployment through April 2010, Release 2.1 processed 141,659 correspondence image view
requests.

Modernized e-File
The MeF system streamlines tax return filing processes and reduces the costs associated with
paper tax returns. Returns submitted through the MeF system have an average 7 percent
processing error rate, compared to 19 percent for transcription-based paper processing. The
MeF system offers 100 percent data capture that is available to IRS customer service
representatives online and in real time.
The IRS first introduced the MeF system in February 2004 for business taxpayers. The IRS has
expanded the MeF system to include excise and partnership tax returns, and MeF Release 6.1
included the first U.S. Individual Income Tax Returns (Forms 1040). On February 17, 2010, the
MeF system began accepting transmissions of the Forms 1040 and 22 related individual forms
and schedules filed during the 2010 Filing Season. As of May 29, 2010, the IRS successfully
accepted approximately 697,000 individual tax returns transmitted through the MeF system for
processing, in addition to the 4.7 million corporate, partnership, and exempt organization returns
and forms accepted.
Future releases of the MeF will include tax law changes, hardware installation for full Form 1040
implementation, full disaster recovery capability, and the remaining Form 1040 related forms
(approximately 120).
Appendix VII presents the BSM Program project accomplishments during the past year.

Additional modernized systems and applications
Additional modernization accomplishments not specifically related to the BSM Program include:
       •   Enhancements to the Excise Files Information Retrieval System.
       •   Implementation of the American Recovery and Reinvestment Act of 2009 (Recovery
           Act)6 provisions for the Health Coverage Tax Credit.
       •   Consideration to continue development of the My IRS Account online application.
       •   Development of the Federal Student Aid – Data Share project.

Modernization and Information Technology Services organization realignment
The Modernization and Information Technology Services organization realigned some program
management responsibilities affecting the modernization efforts. The realignment included
placing the Modernization Vision and Strategy office under the Strategy and Capital Planning

6
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                             Page 4
                                    Annual Assessment of the
                             Business Systems Modernization Program



office. The mission of the Strategy and Capital Planning office is to provide investment
management services to help ensure value-added information technology products and services,
ensure fidelity to investment principles, and fulfill legislative and oversight requirements. The
Strategy and Capital Planning office focuses on IRS-wide information technology strategy and
capital planning and investment controls.
In addition, to improve investment decisions and achieve
efficiencies in the investment selection process, the Strategy
and Capital Planning office developed the Pre-Select phase.      A Pre-Select phase has been
The Case for Action document initiates the business                  developed to establish
investment proposal through the Pre-Select phase. Previously,    alignment   between strategic
executive consideration and approval of information               priorities of the IRS and the
                                                                    information technology
technology investments was based on very detailed solution          investments approach.
concept descriptions and cost estimations. To alleviate some
of the effort relating to information technology investment
planning and decision making and to ensure strategic alignment of the investments, the Strategy
and Capital Planning office added the Pre-Select phase, which was based upon the use of a
business case.
Relative to responding to program needs, the IRS Oversight Board noted that the need for the
IRS to modernize its information technology systems becomes even greater if it is to effectively
manage additional administrative responsibilities being added. The tax code is being used to
deliver economic benefits to taxpayers, including efforts for economic relief, to stimulate the
automotive and housing market, to deliver unemployment and health insurance assistance to
unemployed taxpayers, and to broadly stimulate the economy. Further, with the recent passage
of health care legislation, more responsibilities are being placed on the IRS to become more of a
program administrator.

Process improvement activities
The Modernization and Information Technology Services organization is currently taking steps
to implement the Software Engineering Institute’s Capability Maturity Model® Integration
(CMMI). CMMI is a process improvement maturity model for the development of products and
services. CMMI can be used to guide process improvement across a project, a division, or an
entire organization. The Modernization and Information Technology Services organization goal
is to achieve CMMI Level 3, which shows the organization tailors its work products, measures,
and other process improvement information to the organizational process assets. The objective
of the IRS’ CMMI focus is to:
   •   Produce quality products or services.
   •   Create value for the business stakeholders.
   •   Enhance customer satisfaction.

                                                                                           Page 5
                                    Annual Assessment of the
                             Business Systems Modernization Program



   •   Gain an industry-wide recognition for excellence.

The Business Systems Modernization Program Is Being Revised to
Deliver Improved Capabilities Sooner
TIGTA’s September 2009 Annual Assessment of the BSM Program reported that the immediate
challenge recognized by the IRS is the future of the CADE system, the acknowledged
centerpiece throughout the life of the BSM Program. Currently, the CADE system operates
concurrently with Individual Master File processing. This requires that work must be done
across the two environments, increasing the complexity of the filing season and resulting in a
greater risk for errors in processing taxpayer account information. In addition, concerns about
the increasing complexities and questions of scalability with the existing system led to the
development of the new strategy.
In August 2008, the IRS Commissioner established the Modernized Taxpayer Account Program
Integration Office to manage the transition of taxpayer account processing to the newly
refocused plan for a new modernized environment (now referred to as the CADE 2). The
CADE 2 Strategy for improving individual taxpayer account processing involves three phases:
   •   Transition State 1 will modify the Individual Master File to run daily (currently
       individual taxpayer accounts are processed on a weekly basis) and establish a new
       relational database to store all individual taxpayer account information. The IRS plans to
       implement Transition State 1 in January 2012.
   •   Transition State 2 will use a single set of applications and address previously identified
       financial material weaknesses. The IRS plans to implement Transition State 2 in
       January 2014.
   •   Target State will consist of a single system using elements of the Individual Master File
       and the current CADE system and will eliminate all transitional applications such as
       those used to link the current CADE system, the Individual Master File, and the
       Integrated Data Retrieval System. The IRS is performing additional analysis to establish
       an estimated date for the Target State to be implemented.
Upon completion of the CADE 2 program, individual tax account processing applications will
access and update taxpayer data using the new relational database. The relational database will
be the single system of record for all individual taxpayer accounts. Accounts will be updated
and settled within 24 hours to 48 hours, and subsequently synchronized with other systems. The
system will provide financial management services for all individual taxpayer accounts and
mechanisms will be in place to ensure data privacy and integrity. Achievement of the proposed
CADE 2 program capabilities will also reduce or eliminate the financial material weakness and
will enhance security over taxpayer data.


                                                                                           Page 6
                                    Annual Assessment of the
                             Business Systems Modernization Program



To enable the successful implementation of the new CADE 2 Strategy, the Program Integration
Office must effectively manage the risks it has identified. The Program Integration Office,
working in conjunction with the IRS business owners, has identified risks that must be managed
to allow the success of the new CADE 2 Strategy. The Program Integration Office has prepared
management strategies for each high-level risk. Following are some challenges that we believe
the Program Integration Office must address to effectively manage these risks.
   •   Ensuring support for the modernization efforts from other critical IRS organizations.
   •   Implementing a governance structure for the Program Integration Office to provide
       oversight and direction for the implementation of the new CADE 2 Strategy.
   •   Employing enough competent technical resources to modify the Individual Master File
       and current CADE programs, while continuing to keep the current system operating.
   •   Developing a strategy for addressing potential questions and concerns by Congress, the
       IRS Oversight Board, and other stakeholder groups about the refocused BSM Program
       plans and transitional activities.
   •   Developing contingency plans in the event that the new CADE 2 Strategy cannot be fully
       implemented.
Successful completion of the new CADE 2 Strategy will require a long-term commitment from
both current and future IRS executives to maintain the modernization direction and goals. Past
attempts by the IRS to modernize its computer systems have been affected by changes
introduced by new senior level executives. While some changes are inevitable due to evolving
technologies and changing environments, consistency in BSM Program direction and goals is
critical for successful completion.

Delivering Planned Capabilities Is a Continuing Challenge for
Modernization Efforts
The BSM Program has continued to help improve IRS operations and is refocusing its efforts to
improve business practices with new information technology solutions. However, project
development activities have not always effectively implemented planned processes or delivered
all planned system capabilities to achieve the BSM Program expectations. Management of the
project costs and schedule has improved since the previous year, but requirements development
and management continues to need attention. Further, resolution has not yet been completely
achieved for security vulnerabilities affecting the CADE and MeF systems.




                                                                                           Page 7
                                       Annual Assessment of the
                                Business Systems Modernization Program



BSM Program cost and schedule management
In our 2009 assessment of the BSM Program,7 we reported that 5 (29 percent) of the
17 project milestones scheduled for completion were significantly over cost estimates. These
projects were between 30 percent and 375 percent over budget. In addition, 3 (18 percent) of
17 milestones were significantly behind schedule. These projects were between 15 percent and
54 percent behind schedule. IRS management subsequently informed us that the variances were
revised in July 2009 to reflect changes in the baseline figures used to compute the variances.
In the past year, progress has been made as project releases delivered after May 2009 and
currently in progress were delivered on or within the accepted 10 percent variance in schedule.
However, 3 projects experienced cost variances in excess of the accepted plus or minus
10 percent variance.
    •   Account Management Services Release 2.1 (Milestone 5) – The IRS reported it spent
        $699,000 less than planned (negative 64 percent variance) because deployment activities
        were significantly less than originally planned.
    •   CADE Release 5.2 (Milestone 4b) – The IRS reported it spent $2,635,000 less than
        planned (negative 12 percent variance) because the costs for development, test, and
        integration activities were less than originally planned.
    •   MeF Release 6.1 (Milestones 4a through 5) – The project experienced a 73 percent cost
        variance. The IRS reported that the MeF Project required a net realignment of
        $29.1 million from Release 7 to 6.1 to support unplanned and required needs, including
        disaster recovery preparation and testing, the integration of processing and access with
        other applications and external users, and expanded hardware needs. This realignment
        was properly documented, controlled, and approved through the Submission Processing
        Executive Steering Committee.
Appendix VI presents the cost and schedule variance for BSM Program project releases
delivered from June 2009 through May 2010 and currently in progress.

Requirements development and management continues to need attention
During the past year, the TIGTA reported on the adequacy of the development and management
of BSM Program and other modernization project requirements. These issues included the
adequacy of controls for managing the development of requirements and the documentation and
control over requirements testing and traceability. These issues were present in two
BSM Program reports on the MeF Program and four reports on non-BSM Program
modernization projects.


7
 Annual Assessment of the Business Systems Modernization Program (Reference Number 2009-20-136, dated
September 14, 2009).
                                                                                                   Page 8
                                        Annual Assessment of the
                                 Business Systems Modernization Program



    •   MeF – In our report on the development of MeF Release 6.1,8 the TIGTA reported that
        the System Integration and Test End of Test Completion Report showed that the test
        results were not traced to the requirements and that the MeF system did not execute all of
        the requirements as expected. In a prior TIGTA audit report entitled
        The Modernized e-File Project Can Improve Its Management of Requirements,9 we
        recommended Project Teams follow the Enterprise Life Cycle10 provisions for managing
        requirements by ensuring planned capabilities were developed by tracing release
        requirements in the System Requirements Report to the requirements traceability
        verification matrices. In addition, we recommended the Project Team document
        implementation of all requirements throughout the project life cycle in the System
        Requirements Report. The lack of consistent information regarding the effective
        execution of application requirements could affect the ability of the MeF system to
        perform the expected capabilities.
        A second MeF report (this one on the post-implementation results of MeF Release 6.1)11
        identified that individual tax returns were erroneously rejected from the MeF system.
        The report stated that the IRS anticipated processing 9.3 million tax returns through its
        MeF system as of April 15, 2010. However, delays in deploying the MeF system for
        individual tax returns and subsequent problems with the application reduced the number
        of tax returns processed to only 752,320 (8.1 percent of expected volume).
    •   Excise Files Information Retrieval System – The IRS developed the Excise Files
        Information Retrieval System to improve motor fuel excise tax compliance and identify
        potential noncompliant taxpayers to reduce fraud. The TIGTA reported that changing
        system requirements resulted in increased costs and schedule delays. The Excise Files
        Information Retrieval System Project Team began a modernization upgrade of two of its
        six subsystems based on a recommendation from a study conducted by the Unisys
        Corporation. Subsequently, Small Business/Self-Employed Division Excise Tax
        Program personnel recommended that consideration be given to moving the two
        subsystems to a new platform. The Unisys Corporation stated in its report that
        insufficient information and time were available to complete a detailed study of the new
        platform.
        The IRS hired the MITRE Corporation to conduct a study to determine whether the new
        platform was better. The MITRE Corporation study concluded that both platforms

8
  Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System
Development and Security Need Improvement (Reference Number 2010-20-041, dated May 26, 2010).
9
  Reference Number 2007-20-099, dated July 9, 2007.
10
   See Appendix IV for an overview of the Enterprise Life Cycle.
11
   System Errors and Lower Than Expected Tax Return Volumes Hinder the Internal Revenue Service’s Ability to
Evaluate the Success of the Modernized e-File Individual Tax Return Processing (TIGTA Audit
Number 200940047, draft report dated July 13, 2010).
                                                                                                       Page 9
                                 Annual Assessment of the
                          Business Systems Modernization Program



    technically met the user requirements, but stated that Small Business/Self-Employed
    Division Excise Tax Program personnel were skeptical that the platform recommended
    by the Unisys Corporation could support their processes. Finally, IRS executives
    approved the migration of the two subsystems to the new platform. The indecision in
    assessing the user requirements to upgrade the subsystems resulted in increased costs of
    almost $2.8 million and delayed implementation of the first phase of the Excise Files
    Information Retrieval System Project modernization by 1 year.
•   My IRS Account – The first release of the My IRS Account project, which would allow
    taxpayers to view their tax account information online, was developed and near
    deployment when the IRS decided to terminate the project. The IRS Strategic Plan for
    2009-2013 was presented at the same time the My IRS Account project was being
    readied for deployment, and IRS executives decided to reexamine the project for its
    ability to meet both taxpayer and IRS strategic needs and requirements. As a result of not
    fully managing the project’s requirements and development of a long-term strategy for
    the My IRS Account project or other online projects, the IRS approved the termination of
    the My IRS Account project near the project’s scheduled deployment date. This decision
    occurred after 32 months of development and the expenditure of approximately
    $10 million to build My IRS Account Release 1.
•   Health Coverage Tax Credit – The IRS implemented mandated provisions to the Health
    Coverage Tax Credit Program and upgraded the capacity of the Health Coverage Tax
    Credit system used to manage the health care claims and payments. However, the
    requirements traceability matrix for Health Coverage Tax Credit Release 9 was not all
    inclusive and needed further development. Without complete traceability, the IRS could
    not ensure adequate development of requirements and tracing, potentially resulting in
    requirements not being satisfied. Missing or invalid requirements could jeopardize the
    IRS’ ability to deliver health insurance benefits to taxpayers and its ability to identify
    noncompliance with mandated Health Coverage Tax Credit legislation.
•   Federal Student Aid Datashare Application – The Federal Student Aid Datashare
    application provides a web-based method for taxpayers to complete the Department of
    Education’s Free Application for Federal Student Aid. Instead of manually entering their
    tax return information on the application form, taxpayers can now automatically transfer
    their tax return data to the application form. While the IRS successfully developed and
    deployed the Federal Student Aid Datashare application on January 28, 2010, some
    system development processes needed improvement. Specifically, controls over
    requirements management needed strengthening to ensure test cases and requirement
    documents were fully developed, test results should be documented timely and
    consistently and in a manner that minimizes the potential for manipulation, and project
    team meetings should be documented to ensure significant decisions and followup action
    items are tracked and timely completed.

                                                                                      Page 10
                                         Annual Assessment of the
                                  Business Systems Modernization Program



Resolution of security vulnerabilities with BSM systems has not been achieved
In the past year, the TIGTA performed followup work relating to known CADE and MeF system
security vulnerabilities. We identified that the IRS Cybersecurity organization does not monitor
system owners’ compliance with IRS policy to track all system vulnerabilities in the Plan of
Action and Milestones lists. Further, it does not monitor system owners’ compliance with IRS
policy to verify that weaknesses are corrected before reporting them as resolved on the Plan of
Action and Milestones list. We reported about the management of security weaknesses affecting
the CADE and MeF systems:
     •   CADE – The IRS has taken steps to address all 16 CADE system security vulnerabilities
         presented in our report entitled The Internal Revenue Service Deployed Two of Its Most
         Important Modernized Systems With Known Security Vulnerabilities12 and has fully
         resolved 10 of them. The remaining six security vulnerabilities cannot be resolved until
         actions are completed to ensure controls are effectively in place or have been approved as
         deviations to IRS policy. Further, we found that the IRS prematurely reported resolution
         of six vulnerabilities in the Plan of Action and Milestones list before effective corrective
         actions were taken. Three of these six vulnerabilities were not fully resolved as of the
         date of our review.
         We observed that inadequate monitoring of vulnerabilities in the Plan of Action and
         Milestones list and premature reporting of vulnerabilities as resolved may decrease
         managerial attention to unresolved problems, prevent allocation of resources required to
         fix problems, and lead to delays in correcting vulnerabilities. Inaccurate Plan of Action
         and Milestones list information prevents the Office of Management and Budget from
         obtaining an accurate status of the IRS’ security weaknesses.
     •   MeF – There were 13 MeF system security vulnerabilities identified as part of the IRS
         Cybersecurity MeF Release 4 Security Risk Assessment, dated April 23, 2007. These
         security vulnerabilities were also reported in a prior TIGTA report entitled The Internal
         Revenue Service Deployed the Modernized e-File System With Known Security
         Vulnerabilities.13 In our report on the development of MeF Release 6.1,14 we related our
         analysis of the vulnerabilities and found the resolution activity was not always adequately
         controlled or monitored. The January 2010 Security Test and Evaluation reports show
         that only 2 of the 13 security MeF system vulnerabilities were actually resolved. The
         Security Test and Evaluation also identified two failed security controls that were not
         previously reported as system security weaknesses. The failed controls involved user
         access limitations and configuration of audit trail record storage capacity.

12
   Reference Number 2008-20-163, dated September 24, 2008.
13
   Reference Number 2009-20-026, dated December 30, 2008.
14
   Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System
Development and Security Need Improvement (Reference Number 2010-20-041, dated May 26, 2010).
                                                                                                          Page 11
                                    Annual Assessment of the
                             Business Systems Modernization Program



       We observed that without proper controls to monitor and resolve the MeF system security
       vulnerabilities and findings, unauthorized access to taxpayer information would continue
       to be available and possibly go undetected. Consequently, the confidentiality, integrity,
       and availability of the taxpayer records maintained by the MeF system could be affected.
       Also, weak supervision and review of user activities increases the opportunity for a user
       to perform undesirable actions that could go undetected by organization officials.
We recommended that the Chief Technology Officer ensure that the Cybersecurity organization
complete implementation of the process to ensure that system owners comply with IRS policy to
enter and track all system security weaknesses in IRS control systems (this should include all
MeF system security issues). The security weaknesses should be monitored and tracked to
resolution in either the Plan of Action and Milestones or the Item Tracking Reporting and
Control System. The IRS agreed with our recommendation. The Cybersecurity office responded
that it has made continuous improvements to the Plan of Action and Milestones process and
considers the process complete and implemented as of March 2010.
In addition to the above issues, we have reported that the IRS continues to face difficulties in
capturing, storing, and reviewing audit trail information on many systems, including both the
CADE and MeF. Similarly, the Government Accountability Office reported that information
security weaknesses continue to affect the IRS’ modernization environment. They reported that
the IRS continues to have weaknesses in information security controls. While the IRS reported
that it had corrected about 40 percent of previously reported weaknesses, the Government
Accountability Office found that the IRS had not fully implemented the remedial actions it had
reported for at least a third of those that it considered corrected.
Appendix IX presents a synopsis of the findings, recommendations, and IRS corrective actions
for TIGTA reports issued from June 2009 through July 2010.

Effective Management of Persistent Project Development Activity
Problems Is Necessary for Success of the Modernization Program
Since November 2001, the TIGTA has reported nine assessments on annual accomplishments
and activities of the BSM Program. Although the BSM Program has made improvements in
business practices with information technology solutions, the development activities experienced
difficulties in the process (Appendix X presents a synopsis of the issues reported in each of the
nine TIGTA annual assessments of the BSM Program). In developing the annual assessments,
the TIGTA formulated four primary challenges the IRS must overcome to be successful:
   1. Implement planned improvements in key management processes and commit necessary
      resources to enable success.
   2. Manage the increasing complexity and risks of the BSM Program.
   3. Maintain the continuity of strategic direction with experienced leadership.

                                                                                         Page 12
                                     Annual Assessment of the
                              Business Systems Modernization Program



   4. Ensure contractor performance and accountability is effectively managed.
The BSM Program made progress in overcoming aspects of these challenges since their
formulation in September 2002 and September 2003. However, some elements of the challenges
and project development activities persistently present barriers to success.
With respect to the first challenge, improvements to key processes, a major issue reported
repeatedly in these annual assessment reports is the ability to manage project requirements. This
is a major issue again in this year’s assessment.
Managing the increasing complexity and risks of the BSM Program is a current challenge in the
form of the new strategy to Manage Taxpayer Accounts through the CADE 2 system. Along
with the management of this new strategy and the ability to achieve a successful solution through
the CADE 2 system is the future planning and strategy for integrating downstream systems. This
integration will provide the ability to enhance business practices to meet goals for better
customer service and improved tax compliance.
The BSM Program has previously experienced significant and frequent turnover of high-level
IRS and Modernization Program executives. Although this year’s executive cadre has been
stable, executive changes make program continuity a challenge to achieving long-term program
success.
Lastly, managing contractor performance has been less of an issue since the IRS assumed the
BSM Program integrator role in January 2005. However, identifying and timely employing
contractors continues to present a challenge to the IRS. This challenge includes the ability to
ensure appropriate security controls are timely and completely implemented in employing
contracted personnel.
The IRS is at a key point in its BSM Program with the demands for achieving success for the
“Pillars of Modernization.” The TIGTA continues to take the position that these four challenges
still need to be met to achieve program success. We are encouraged by the actions planned and
taken to refocus the BSM Program, especially related to the CADE 2 program activities. When
successful, the CADE 2 program will provide a significant boost to the IRS’ ability to move
away from its antiquated tax return processing systems and provide improved service to
taxpayers. However, there are significant risks involved in retooling the entire BSM Program
and the use of techniques and processes new to the IRS. Consequently, we believe the IRS
should continue to consider the overall BSM Program as a material weakness until it can
successfully demonstrate that the CADE 2 system can operate securely and effectively.
       Management’s Response: The Chief Technology Officer responded that the IRS
       was pleased to read the TIGTA’s comments and observations that the BSM Program has
       continued to provide new information technology capabilities and related benefits to the
       IRS and taxpayers. The Chief Technology Officer acknowledged the IRS was at a key
       point in the BSM effort and believes it is on its way to successfully demonstrate that the

                                                                                           Page 13
                            Annual Assessment of the
                     Business Systems Modernization Program



CADE 2 can operate effectively. The Chief Technology Officer also related that the IRS
is committed to continuously improving its technology systems and process.




                                                                               Page 14
                                        Annual Assessment of the
                                 Business Systems Modernization Program



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the IRS BSM Program since
June 2009 as required by the IRS Restructuring and Reform Act of 1998.1 To accomplish this
objective, we:
I.      Determined the current condition of the BSM Program.
        A. Reviewed various TIGTA audit reports issued from June 2009 through July 2010,2
           and the TIGTA’s eight previous BSM Program annual assessment reports (issued in
           Fiscal Years 2002 – 2009).3
        B. Reviewed IRS Oversight Board4 reports on the BSM Program for Fiscal Year 2010.
        C. Reviewed Government Accountability Office reports relevant to BSM Program
           activities for Fiscal Year 2010.
        D. Identified the TIGTA audit recommendations with incomplete IRS corrective actions
           related to the BSM Program material weakness.
II.     Determined the status and condition of the BSM Program reported by the IRS by
        reviewing documentation related to:
        A. The Chief Technology Officer’s material weaknesses, corrective actions, and status.
        B. The IRS Information Technology Modernization Vision and Strategy.
        C. The November 2009 Business Systems Modernization Fiscal Year 2009 and 2010
           Expenditure Plan and BSM Monthly Performance Measures Reports to analyze cost,
           schedule, and capability status and accomplishments. We did not validate the
           information provided by the IRS on the cost, scope, and business value of the
           BSM Program. We analyzed these documents to:

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IX for a detailed list of recent TIGTA reports and associated findings.
3
  Annual Assessment of the Internal Revenue Service’s Business Systems Modernization Program (Reference
Number 2002-20-189, dated September 27, 2002) and seven annual reports entitled Annual Assessment of the
Business Systems Modernization Program (Reference Number 2003-20-208, dated September 29, 2003; Reference
Number 2004-20-107, dated June 3, 2004; Reference Number 2005-20-102, dated August 10, 2005; Reference
Number 2006-20-102, dated June 30, 2006; Reference Number 2007-20-121, dated August 24, 2007; Reference
Number 2008-20-129, dated June 24, 2008; and Reference Number 2009-20-136, dated September 14, 2009).
4
  See Appendix XI for a glossary of terms.
                                                                                                   Page 15
                                    Annual Assessment of the
                             Business Systems Modernization Program



           1. Determine overall variances between planned and actual costs and schedules and
              obtain reasons for significant variances.
           2. Determine the extent planned capabilities were delivered as proposed in the
              November 2009 Business Systems Modernization Fiscal Year 2009 and 2010
              Expenditure Plan.
       D. The April 2010 IRS Modernization Has Delivered Real Business Value status report
          to provide perspective on Business System Modernization Program developments
          used in IRS operations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not evaluate internal
controls as part of this review because doing so was not necessary to satisfy our review
objective.




                                                                                        Page 16
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Stasha S. Smith, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
Louis V. Zullo, Senior Auditor




                                                                                     Page 17
                                 Annual Assessment of the
                          Business Systems Modernization Program



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CTO:CIO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CTO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Procurement OS:A:P
Director, Risk Management OS:CTO:SP:RM
Director, Strategy and Capital Planning OS:CTO:SP:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Associate Chief Information Officer, Enterprise Services OS:CTO:ES
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CTO:SM:PO




                                                                                 Page 18
                                            Annual Assessment of the
                                     Business Systems Modernization Program



                                                                                     Appendix IV

                          Enterprise Life Cycle Overview

The Enterprise Life Cycle1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.
      •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone), at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




1
    See Appendix XI for a glossary of terms.
                                                                                          Page 19
                                         Annual Assessment of the
                                  Business Systems Modernization Program



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone

 Vision and Strategy/
                                    High-level direction setting. This is the only
 Enterprise Architecture                                                                       0
                                    phase for enterprise planning projects.
 Phase

 Project Initiation Phase           Startup of development projects.                           1

                                    Specification of the operating concept,
 Domain Architecture Phase                                                                     2
                                    requirements, and structure of the solution.

 Preliminary Design Phase           Preliminary design of all solution components.             3

 Detailed Design Phase              Detailed design of solution components.                   4A

                                    Coding, integration, testing, and certification of
 System Development Phase                                                                     4B
                                    solutions.

                                    Expanding availability of the solution to all target
 System Deployment Phase            users. This is usually the last phase for                  5
                                    development projects.

 Operations and Maintenance                                                                 System
                                    Ongoing management of operational systems.
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 20
                                                           Annual Assessment of the
                                                    Business Systems Modernization Program



                                                                                                                        Appendix V

   Business Systems Modernization Program Funding

Figure 1 presents the cumulative funding received by the BSM Program for contractor costs.
                                              Figure 1: BSM Program Funding Timeline
                                                       (dollars are cumulative)

                            $3,500
                                                                                                                                   $3,241
                                                                                                                          $2,925
                            $3,000
                                                                                                                 $2,707
                                                                                                        $2,522
                            $2,500                                                             $2,300
    Dollars (in millions)




                                                                                          $2,134
                                                                                 $1,937
                            $2,000
                                                                          $1,734


                            $1,500                               $1,346

                                                          $968
                            $1,000
                                                   $577
                                            $449
                             $500

                                      $35

                               $0
                                     1999 2000     2001   2002 2003       2004     2005   2006 2007     2008     2009     2010 2011*
                                                                            Fiscal Year

* The Fiscal Year 2011 amount has not yet been appropriated. The amount is from the President’s Fiscal
Year 2011 Budget Request and includes an estimated $70 million to fund associated IRS labor costs.
Source: Business Systems Modernization Expenditure Plans.




                                                                                                                                   Page 21
                                                                 Annual Assessment of the
                                                          Business Systems Modernization Program



Figure 2 presents the funding received annually by the BSM Program for program management
and development of business and infrastructure projects.
                                           Figure 2: BSM Program Funding by Fiscal Year

                             $450
                                            $414
                                                            $391            $388                                                    $387
                             $400
                                                                    $378


                             $350


                             $300
     Dollars (in millions)




                                                                                                            $267
                                                                                                                            $264

                             $250                                                                                   $230
                                                                                                    $213
                                                                                    $203    $197
                             $200


                             $150                  $128


                             $100
                                     $35
                             $50


                              $0
                                    1999   2000    2001    2002    2003    2004    2005    2006    2007    2008    2009    2010    2011*
                                                                             Fiscal Year


* The Fiscal Year 2011 amount has not yet been appropriated. The amount is from the President’s Fiscal
Year 2011 Budget Request to fund associated IRS labor costs.
Source: Business Systems Modernization Expenditure Plans.




                                                                                                                                           Page 22
                                                            Annual Assessment of the
                                                     Business Systems Modernization Program



Figure 3 presents the cumulative funding received by the BSM Program for non-contractor costs
of managing BSM Program activities.
                                     Figure 3: Non-contractor BSM Program Funding Timeline
                                               by Fiscal Year (dollars are cumulative)

                              $500                                                                                             $473.7

                              $450
                                                                                                                      $403.5
                              $400                                                                           $357.5
      Dollars (in millions)




                              $350                                                                      $312.3

                              $300                                                             $267.1

                              $250                                                        $220.0

                              $200
                                                                                 $170.2

                              $150                                          $119.0
                                                                    $82.4
                              $100
                                                            $54.3
                               $50            $11.8 $27.6
                                       $6.2
                               $0
                                      1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011*

                                                                             Fiscal Year

* The Fiscal Year 2011 amount has not yet been appropriated. The amount is from the President’s Fiscal Year 2011
Budget Request.
Source: The actual funding for Fiscal Years 1999 through 2010 and the budget estimate for Fiscal Year 2011 were
provided by the IRS.




                                                                                                                               Page 23
                                                          Annual Assessment of the
                                                   Business Systems Modernization Program



Figure 4 presents the funding received annually by the BSM Program for non-contractor costs of
managing Program activities.
                        Figure 4: Non-contractor BSM Program Costs by Fiscal Year

                                     $80
                                                                                                                           $70.2
                                     $70


                                     $60
                                                                                 $51.2
             Dollars (in millions)




                                                                                         $49.8
                                     $50                                                         $47.1                 $46.0
                                                                                                         $45.2 $45.2

                                     $40                                 $36.6

                                                                     $28.1
                                     $30                     $26.7


                                     $20             $15.8


                                     $10    $6.2 $5.6


                                     $0
                                           1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011*
                                                                             Fiscal Year

* The Fiscal Year 2011 amount has not yet been appropriated. The amount is from the President’s Fiscal
Year 2011 Budget Request.
Source: The actual funding for Fiscal Years 1999 through 2010 and the budget estimate for Fiscal Year 2011 were
provided by the IRS.




                                                                                                                               Page 24
                                           Annual Assessment of the
                                    Business Systems Modernization Program



  Figure 5 depicts the cumulative $3.7 billion in BSM Program funding for non-contractor and
  external (contractor) costs to manage BSM Program activities through Fiscal Year 2011.
      Figure 5: Cumulative Internal and External BSM Program Costs (in millions)


                                                                            Internal Costs
                                                                             $473.7 (13%)




                                    External Costs
                                    $3,241.3 (87%)




Source: The actual internal costs for Fiscal Years 1999 through 2010 and the internal budget estimate for
Fiscal Year 2011 were provided by the IRS. The external costs were derived from BSM Expenditure Plans.




                                                                                                            Page 25
                                           Annual Assessment of the
                                    Business Systems Modernization Program



  Figure 6 depicts the total $264 million in Fiscal Year 2010 BSM Program funding for
  non-contractor and external (contractor) costs to manage BSM Program activities.
  Figure 6: Fiscal Year 2010 Internal and External BSM Program Costs (in millions)


                                                                    Internal Costs
                                                                      $46 (17%)



                                 External Costs
                                  $218 (83%)




Source: The funding for Fiscal Year 2010 was provided by the IRS.

  Figure 7 depicts the planned $387 million Fiscal Year 2011 BSM Program budget estimate for
  external (contractor) and internal (non-contractor) costs to manage BSM Program activities.
               Figure 7: Fiscal Year 2011 Internal and External BSM Program
                                 Cost Estimates (in millions)


                                                                    Internal Costs
                                                                     $70.2 (18%)


                                  External Costs
                                   $316.8 (82%)




* These Fiscal Year 2011 amounts have not yet been appropriated.
Source: The President’s Fiscal Year 2011 Budget Request.
                                                                                        Page 26
                                               Annual Assessment of the
                                        Business Systems Modernization Program



                                                                                                  Appendix VI

           Project Cost and Schedule Variance Analysis

This table presents the cost and schedule variance for BSM Program project releases1 delivered
after May 2009 and currently in progress. The statistics presented reflect the cost and schedule
estimates of these projects at the time of their initial design.

                         Current                           Cost            Cost        Schedule     Schedule
                       Finish Date                       Variance        Variance      Variance     Variance
         Release        (Planned)         Milestone2     (Dollars)     (Percentage)     (Days)    (Percentage)
         CADE
            5.2      January 15, 2010        4b         -$2,635,000        -12%           -9          -5%
            6.2       (Jan 31, 2011)         4b                   $0        0%            0           0%
         CADE 2
          Trans
         State 1     (April 30, 2011)        3-4a                 $0        0%            0           0%
         Account Management Services
            2.1      August 5, 2009          4b           -$456,000        -10%           0           0%
            2.1      February 8, 2010         5           -$699,000        -64%           0           0%
         MeF
            6.1       May 25, 2010           4a-5       $29,100,000        73%            7           2%
            6.2      (Sept 21, 2010)         3-4a                 $0        0%            0           0%
            7         (May 2, 2011)          3-4a                 $0        0%            0           0%
        Source: IRS Strategy & Planning organization - Financial Management Services office, Business Systems
        Modernization Monthly Performance Measures report, issued June 15, 2010.




1
    See Appendix XI for a glossary of terms.
2
    See Appendix IV for description of the various Enterprise Life Cycle milestones.
                                                                                                            Page 27
                                        Annual Assessment of the
                                 Business Systems Modernization Program



                                                                                              Appendix VII

           Business Systems Modernization Program
                  Project Accomplishments

Table 1 presents the BSM Program project accomplishments since our September 2009 annual
assessment of the BSM Program.1
                     Table 1: BSM Program Project Accomplishments

PROJECT            DESCRIPTION                                      RECENT STATISTICS
Account            Account Management Services provides             The Account Management Services Release 2.1 final
Management         customer service representatives and tax         milestone was completed on February 8, 2010, and
Services2          examiners with the tools to access               provided all Account Management Services users the
                   information quickly and accurately in            ability to view correspondence images online and on
                   response to complex customer inquiries in a      demand, eliminating users’ reliance on the manual
                   modernized environment. Technical                processes to obtain copies of images. Direct access to
                   advancements have provided users with the        images via Account Management Services reduced
                   ability to view correspondence images            the case cycle time from 10 to 14 days to zero.
                   online and on demand.
                                                                    As of April 2010, more than 141,659 correspondence
                                                                    image view requests have been processed since
                                                                    Release 2.1 was deployed.
Current Customer   The current CADE system has provided a           Current CADE Release 5.2 delivered Tax Year 2009
Account Data       foundation for modernized systems. It            tax law changes affecting individual taxpayers and
Engine (CADE)      offers the IRS the capability to issue           provided technical improvements to the infrastructure
                   taxpayer refunds faster and the flexibility to   and availability of the current CADE system.
                   respond more quickly to complex tax law          Release 5.2 was successfully deployed on
                   and policy initiatives, which the existing       January 18, 2010. As of May 31, 2010, the current
                   Master File system cannot currently do           CADE system posted 40.5 million returns and issued
                   easily or cost-effectively.                      35.4 million refunds totaling in excess of
                                                                    $65.6 billion.
                                                                    The CADE system processes refunds on an average of
                                                                    5 days faster than Individual Master File processing.




1
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2009-20-136, dated
September 14, 2009).
2
  See Appendix XI for a glossary of terms.
                                                                                                          Page 28
                                           Annual Assessment of the
                                    Business Systems Modernization Program




  Modernized e-File   The MeF system provides the electronic         The Business Master File component, including the
  (MeF)               filing capability of more than 23 individual   entire infrastructure for MeF Release 6.1, deployed on
                      tax forms and schedules (Form 1040             January 7, 2010, and the Individual Master File
                      family) and more than 600 forms and            component deployed on February 17, 2010. As of
                      schedules for large corporations and small     May 8, 2010, more than 7 million returns (for both
                      businesses (Form 1120 family), tax-exempt      Business and Individual Master File) had been
                      organizations (Form 990 family),               submitted and more than 5.4 million had been
                      partnerships (Form 1065 family), and           accepted. Also as of that date, more than 20,800
                      associated extension forms                     mandated corporate and exempt organization returns
                      (e.g., Form 7004).                             had been received and more than 20,300 had been
                                                                     accepted.

                                                                     Seventeen States now participate in the
                                                                     MeF Fed-State program. In 2009, these States
                                                                     received more than 599,000 returns through the MeF
                                                                     system. As of May 8, 2010, more than 995,000 State
                                                                     returns have been received through the MeF system.

                                                                     Returns submitted through the MeF system have an
                                                                     average 7 percent processing error rate, compared to
                                                                     19 percent for transcription-based paper processing.
                                                                     The MeF system offers 100 percent data capture that
                                                                     is available to IRS customer service representatives
                                                                     online and in real time.
Source: IRS Applications Development organization – “Business Value Chart.”




                                                                                                           Page 29
                                                Annual Assessment of the
                                         Business Systems Modernization Program



                                                                                                   Appendix VIII

           Open Recommendations From Prior Year Reports
           Related to the Business Systems Modernization
                     Program Material Weakness

Table 1 lists prior TIGTA audit recommendations related to the BSM Program material weakness1
that still have open IRS corrective actions.
                             Table 1: TIGTA Recommendations Related to the
                                     BSM Program Material Weakness

    The Modernization, Information Technology and Security Services Organization Needs to Take Further Action
    to Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 22, 2003)

                             To ensure the Modernization and Information Technology Services organization has
                             sufficient data to determine human capital demands, the Chief Information Officer needs to
                             support the Director, Management Services, to work with offices throughout the
          2003-20-209        Modernization and Information Technology Services organization to identify the human
            Finding 1,       capital demand. The demand includes information to adequately plan the number, location,
        Recommendation 1     and assignment schedule of human capital assets for existing information systems and future
                             Modernization and Information Technology Services organization operations.
                             Due Date: December 31, 2010.

    The BSM Program Has Achieved Mixed Success in Addressing Weaknesses Identified in Internal and External
    Studies (Reference Number 2006-20-003, dated November 21, 2005)

                             To ensure study weaknesses and previous recommendations concerning
                             change/configuration management are addressed, the Associate Chief Information Officer,
          2006-20-003        Enterprise Services, should create an overall plan that includes defined tasks, responsible
            Finding 1,       individuals, and estimated completion dates for implementing the standardized configuration
        Recommendation 2     management toolset.
                             Due Date: December 31, 2010.

   Source: TIGTA audit reports issued from September 2003 through June 2009 and the Joint Audit Management
   Enterprise System.




    1
        See Appendix XI for a glossary of terms.
                                                                                                               Page 30
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                             Appendix IX

              Recent Treasury Inspector General for
                   Tax Administration Reports
                on the Internal Revenue Service’s
                     Modernization Program

Table 1 lists TIGTA reports related to the IRS Modernization Program issued from
June 2009 through July 2010 and the associated findings, recommendations, and IRS corrective
actions.
         Table 1: Recent TIGTA Reports, Findings, and Corrective Actions

   Report Title,
 Reference Number,         Finding and Recommendation                            Corrective Action
      and Date

 Changing Excise      Finding 1: Changing system requirements        IRS management agreed to reemphasize the
 Files Information    resulted in increased costs and schedule       importance and requirement of completing
  Retrieval System    delays.                                        an alternatives analysis when making an
   Development                                                       alternative selection for new investments,
   Requirements       Recommendation: The Chief Technology           with the involvement of the architecture and
    Resulted in       Officer should ensure that all future system   engineering organization.
Increased Costs and   redesign alternatives are adequately
  Schedule Delays     considered before final alternative            Status: Closed August 31, 2009.
                      selection.
   2009-20-093
                      Finding 2: Processes for collecting and        IRS management agreed to review
   June 30, 2009      reporting system development costs need        procedures and processes in place for
                      improvement.                                   collecting, computing, verifying, and
                                                                     reporting financial data and develop
                      Recommendation: The Chief Technology           mechanisms to ensure accuracy when
                      Officer should ensure that the processes for   reporting the data.
                      collecting, computing, verifying, and
                      reporting financial data are clearly           Status: Closed November 24, 2009.
                      understood and followed by Project Office
                      personnel so that the information reported
                      is accurate and can be relied upon when
                      making project decisions.




                                                                                                        Page 31
                                            Annual Assessment of the
                                     Business Systems Modernization Program




      Report Title,
    Reference Number,           Finding and Recommendation                             Corrective Action
         and Date

    Changing Strategies    Finding 1: The My IRS Account project          IRS management agreed with our
        Led to the         was terminated prior to deployment.            recommendation. The IRS is currently
    Termination of the                                                    developing a comprehensive electronic
     My IRS Account1       Recommendation: To facilitate a possible       strategy that will identify a set of electronic
         Project           future deployment of the My IRS Account        services for taxpayers, tax professionals, and
                           project, the Chief Technology Officer          other partners. The My IRS Account project
       2009-20-102         should work with the Commissioner, Wage        is among the electronic services being
                           and Investment Division, to complete a         considered and, if it is determined the
     August 12, 2009       long-term strategy for the My IRS Account      My IRS Account project should be
                           project. If the project is restarted, the      deployed, the IRS will address the
                           project should be quickly deployed in order    components outlined in the recommendation
                           for the IRS to realize the maximum benefit     to maximize potential taxpayer benefits.
                           from its $10 million investment by reusing
                           the hardware and functionality developed       Status: Open. Due Date is
                           for the My IRS Account Release 1.              October 15, 2010.

                           Finding 2: An electronic authentication        IRS management agreed with our
                           strategy and solution needs to be              recommendation. The Office of Privacy,
                           developed.                                     Information Protection and Data Strategy,
                                                                          will partner with both the Modernization and
                           Recommendation: The Chief Technology           Information Technology Services and the
                           Officer should ensure that a strategy to       Electronic Tax Administration organizations
                           develop and deploy an enterprise-wide          to develop a strategy for delivery and
                           E-authentication solution is developed as      deployment of an enterprise-wide
                           quickly as possible to allow online projects   E-authentication solution for all customer
                           that require secure access, such as the        channels.
                           My IRS Account project, to be deployed
                           without experiencing similar costly delays.    Status: Closed February 12, 2010.




1
    See Appendix XI for a glossary of terms.
                                                                                                               Page 32
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                             Corrective Action
     and Date

Changing Strategies   Finding 3: Formal project termination           IRS management agreed with our
    Led to the        procedures need to be developed.                recommendation. The IRS has created a
Termination of the                                                    project shutdown guide for projects that are
 My IRS Account       Recommendation: The Chief Technology            shut down prior to deployment. The new
     Project          Officer should ensure formal project            guide was approved on May 14, 2009, and
                      termination procedures are developed for        provides instructions for archiving,
   2009-20-102        information technology projects that are        transferring, and disposing of a system and
                      shut down prior to deployment. At a             its data.
  August 12, 2009
                      minimum, these procedures should include
                      a disposition plan addressing all facets of     Status: Closed August 25, 2009.
    (continued)
                      archiving, transferring, and disposing of the
                      system and its data.

       CADE           Finding: Further work is necessary to           The IRS agreed with our recommendation.
 Release 4 Includes   alleviate known CADE system security            The Cybersecurity organization will
   Most Planned       vulnerabilities.                                continue to improve the process to ensure
  Capabilities and                                                    that system owners comply with IRS policy
      Security        Recommendation: The Chief Technology            to enter and track all system vulnerabilities
 Requirements for     Officer should direct the Cybersecurity         in IRS control systems.
     Processing       organization to take actions that ensure the
  Individual Tax      CADE and mainframe computer system              Status: Closed July 1, 2010.
Account Information   owners a) appropriately enter and track
                      system vulnerabilities on control systems,
   2009-20-100        including the Plan of Action and
                      Milestones list and the Item Tracking
  August 28, 2009     Reporting and Control System, and
                      b) verify corrective actions are fully
                      implemented before they are considered
                      and reported as resolved.




                                                                                                          Page 33
                                      Annual Assessment of the
                               Business Systems Modernization Program




  Report Title,
Reference Number,         Finding and Recommendation                            Corrective Action
     and Date

 Reengineering       Finding: The Program Integration Office        No corrective actions were required because
 Individual Tax      and the IRS business owners made               the report did not make any
Return Processing    significant progress, including the decision   recommendations.
Requires Effective   to integrate elements from both the existing
Risk Management      Individual Master File and the current
                     CADE system processes into a new CADE
  2010-20-001        Strategy. This report also noted that to
                     foster success of the new CADE Strategy
December 7, 2009     and the BSM Program, identified risks and
                     challenges must be effectively addressed
                     and managed, and a long-term commitment
                     is needed by current and future executives.

                     Recommendation: No recommendations
                     were made.




                                                                                                      Page 34
                                        Annual Assessment of the
                                 Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                           Corrective Action
     and Date

MeF Will Enhance       Finding 1: The MeF project team has not       The IRS did not agree with this
   Processing of       completely addressed previously reported      recommendation. One of the components in
Electronically Filed   requirements management and processing        the Governance Layer of the Enterprise Life
  Individual Tax       issues.                                       Cycle Framework is a Milestone Readiness
Returns, but System                                                  Review. This is an ongoing monitoring of a
 Development and       Recommendation: The Chief Technology          project’s progress toward satisfying exit
   Security Need       Officer should ensure that project releases   conditions for the next Milestone Exit
   Improvement         are deployed only after all system            Review and results in a formal go/no-go
                       requirements are tested and met and that      recommendation to the Executive Steering
   2010-20-041         test results are verified to ensure their     Committee. The Executive Steering
                       completeness and accuracy. If                 Committee process provides the forum to
   May 26, 2010        requirements are not met, defect reports      discuss risk-based decisions prior to
                       should be prepared to allow for appropriate   deployment of systems built and products
                       resolution by retesting or waiving the        delivered.
                       requirement prior to deployment.
                                                                     Status: Rejected.

                                                                     Office of Audit Comment: We
                                                                     acknowledge the controls the Milestone
                                                                     Readiness Review and the Executive
                                                                     Steering Committee provide and understand
                                                                     the role testing plays to ensure systems
                                                                     perform their intended functions accurately
                                                                     and reliably. However, with the significant
                                                                     number of failed tests reported and the
                                                                     subsequent problems with rejected
                                                                     individual income tax returns filed, we
                                                                     question whether the Executive Steering
                                                                     Committee had sufficient and timely
                                                                     information to make an informed risk-based
                                                                     decision for deploying MeF Release 6.1.
                                                                     As such, we continue to believe our
                                                                     recommendation to ensure that all system
                                                                     requirements are tested and met and results
                                                                     verified prior to deployment is valid and
                                                                     should be considered by the IRS.




                                                                                                       Page 35
                                        Annual Assessment of the
                                 Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                            Corrective Action
     and Date

MeF Will Enhance       Finding 2: The MeF project team                The IRS concurred with this
   Processing of       generally followed established systems         recommendation. The IRS will incorporate
Electronically Filed   development processes, but can improve its     updates to the Project Initiation and Phase
  Individual Tax       management of requirements and risks.          Kickoff Meeting Process Description and
Returns, but System                                                   Procedure.
 Development and       Recommendation: The Chief Technology
   Security Need       Officer should modify the Enterprise Life      Status: Open. Due Date is
   Improvement         Cycle guidance to require consideration of     October 1, 2010.
                       prior Lessons Learned Reports as part of
   2010-20-041         the Project Initiation and Phase Kickoff
                       Meeting Procedure in the early milestone
   May 26, 2010        planning stages.

    (continued)        (Finding 2 continued)                          The IRS concurred with this
                                                                      recommendation. The IRS will incorporate
                       Recommendation: The Chief Technology           updates to the Project Initiation and Phase
                       Officer should use the Risk Identification     Kickoff Meeting Process Description and
                       Procedure as an input to the Enterprise Life   Procedure.
                       Cycle’s Project Initiation and Phase
                       Kickoff Meeting Procedure.                     Status: Open. Due Date is
                                                                      October 1, 2010.

                       Finding 3: MeF system security issues          The IRS agreed with this recommendation.
                       were not adequately controlled or resolved.    The Cybersecurity office responded that it
                                                                      has made continuous improvements to the
                       Recommendation: The Chief Technology           Plan of Action and Milestones process in
                       Officer should ensure that the                 recent years and now considers the process
                       Cybersecurity organization will complete       complete and implemented as of
                       implementation of the process to ensure        March 25, 2010.
                       that system owners comply with IRS policy
                       to enter and track all system security         Status: Closed March 25, 2010.
                       weaknesses in IRS control systems. This
                       should include all MeF system security
                       issues and it should be ensured they are
                       monitored and tracked to resolution in
                       either the Plan of Action and Milestones or
                       the Item Tracking Reporting and Control
                       System.




                                                                                                         Page 36
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,
Reference Number,          Finding and Recommendation                          Corrective Action
     and Date

   Recovery Act       Finding 1: Requirements Management           IRS management agreed with this
 Provisions for the   processes need improvement.                  recommendation, but noted since it outlines
Health Coverage Tax                                                existing standard processes they have
    Credit Were       Recommendation: The Commissioner,            already addressed it. They stated they
 Implemented, but     Wage and Investment Division, should         completed the Release 9.0 requirements
   Development        ensure that, for ongoing and future system   traceability matrix on August 19, 2009,
Processes Could Be    upgrades, the Health Coverage Tax Credit     following system implementation per the
     Improved         Program Office completes full traceability   standard process. The requirements
                      on the requirements traceability matrix,     traceability report contains some
   2010-21-057        including mapping of all requirements to     requirements that do not call for mapping to
                      high-level requirements and tracing to the   test cases or build requirements.
   May 25, 2010       final product requirements. These include
                      changes, source codes, and any manual        Status: Closed May 25, 2010.
                      referencing accomplished.
                                                                   Office of Audit Comment: The IRS noted
                                                                   that corrective action was accomplished
                                                                   during the review. However, documentation
                                                                   supporting the corrective action was not
                                                                   provided to the TIGTA during the review, so
                                                                   the TIGTA was unable to validate the
                                                                   actions taken. As a result, corrective action
                                                                   will be validated during the subsequent
                                                                   review of the Health Coverage Tax Credit
                                                                   Program Office (Audit Number 201020101).




                                                                                                      Page 37
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                            Corrective Action
     and Date

   Recovery Act       Finding 2: The Configuration Management         IRS management agreed with this
 Provisions for the   process needs strengthening.                    recommendation, but noted they have
Health Coverage Tax                                                   already addressed it. They stated many
    Credit Were       Recommendation: The Commissioner,               standard configuration management
 Implemented, but     Wage and Investment Division, should            processes were in place at the time of this
   Development        ensure that, for ongoing and future releases,   review, and they document all change
Processes Could Be    the Health Coverage Tax Credit Program          requests in a change control log during the
     Improved         Office updates the Configuration                development phase as part of their standard
                      Management Plan to include procedures to        process. Other comments included that the
   2010-21-057        verify all configuration changes are            Configuration Management Plan was
                      properly documented and tracked.                updated January 29, 2010, to include a clear
   May 25, 2010                                                       differentiation of how change requests are
                                                                      managed during development, maintenance,
    (continued)                                                       and operations.

                                                                      Status: Closed May 25, 2010.

                                                                      Office of Audit Comment: The IRS noted
                                                                      that corrective action was accomplished
                                                                      during the review. However, documentation
                                                                      supporting the corrective action was not
                                                                      provided to the TIGTA during the review, so
                                                                      the TIGTA was unable to validate the
                                                                      actions taken. As a result, corrective action
                                                                      will be validated during the subsequent
                                                                      review of the Health Coverage Tax Credit
                                                                      Program Office (Audit Number 201020101).




                                                                                                         Page 38
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,
Reference Number,          Finding and Recommendation                          Corrective Action
     and Date

   Recovery Act       Finding 3: Testing Practices Need            IRS management agreed with this
 Provisions for the   Improvement.                                 recommendation, but noted they have
Health Coverage Tax                                                already addressed it. They stated they
    Credit Were       Recommendation: The Commissioner,            implemented the corrective actions with
 Implemented, but     Wage and Investment Division, should         Release 10.0. The management response
   Development        ensure the Health Coverage Tax Credit        also noted that the IRS had vigorous testing
Processes Could Be    Program Office performs an in-depth          processes at the time of this review and
     Improved         analysis of test plans prior to beginning    completed the implementation of the waiver
                      each program release for elimination of      and deferral process, peer review of test
   2010-21-057        previously tested requirements and, in the   cases, and removal of test cases from test
                      event a test case is erroneously included,   plans that were no longer applicable. As
   May 25, 2010       completes the Test Case Waiver and           these processes existed, or were created for
                      Deferral form for approving its removal.     Release 10.0, they are part of the IRS’
    (continued)                                                    standard procedures.

                                                                   Status: Closed May 25, 2010.

                                                                   Office of Audit Comment: The IRS noted
                                                                   that corrective action was accomplished
                                                                   during the review. However, documentation
                                                                   supporting the corrective action was not
                                                                   provided to the TIGTA during the review, so
                                                                   the TIGTA was unable to validate the
                                                                   actions taken. As a result, corrective action
                                                                   will be validated during the subsequent
                                                                   review of the Health Coverage Tax Credit
                                                                   Program Office (Audit Number 201020101).




                                                                                                      Page 39
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                             Corrective Action
     and Date

   Recovery Act       Finding 4: Performance Measures Targets         Although the IRS acknowledges that new
 Provisions for the   Should Be Updated Using Current                 performance measures targets should be
Health Coverage Tax   Estimates.                                      established for Fiscal Year 2011, it does not
    Credit Were                                                       agree that the inability to estimate targets
 Implemented, but     Recommendation: The Commissioner,               diminishes its ability to measure outcomes
   Development        Wage and Investment Division, should            or demonstrate Health Coverage Tax Credit
Processes Could Be    ensure the Health Coverage Tax Credit           Program effectiveness. The IRS intends to
     Improved         Program Office uses current Fiscal              baseline several of the performance
                      Year 2010 data to develop performance           measures targets using Fiscal Year 2010
   2010-21-057        measures targets for Fiscal Year 2011. In       data in order to develop new targets in
                      addition, applicable current fiscal year data   Fiscal Year 2011.
   May 25, 2010       should be used when developing
                      performance measures targets for future         In Fiscal Year 2009, the IRS obtained
    (continued)       years to ensure accurate representation of      agreement from the Wage and Investment
                      the Health Coverage Tax Credit Program’s        Division and the Department of the Treasury
                      effectiveness.                                  that Fiscal Year 2010 would be a baseline
                                                                      year for many of the performance measures
                                                                      targets. Many of the Health Coverage Tax
                                                                      Credit measures are based on workload and
                                                                      enrollee volumes, which fluctuated widely
                                                                      due to the uncertain nature of the expanded
                                                                      Health Coverage Tax Credit population.
                                                                      The Health Coverage Tax Credit Program
                                                                      Office collects up-to-date information
                                                                      monthly and shares the results with Program
                                                                      leadership, Wage and Investment Division
                                                                      Senior Leadership, and the Department of
                                                                      the Treasury.

                                                                      Status: Open. Due Date is
                                                                      November 15, 2010.




                                                                                                          Page 40
                                        Annual Assessment of the
                                 Business Systems Modernization Program




  Report Title,
Reference Number,           Finding and Recommendation                            Corrective Action
     and Date

   Recovery Act        Finding 4 continued.                           Office of Audit Comment: The audit
 Provisions for the                                                   recommendation is intended to ensure the
Health Coverage Tax                                                   Health Coverage Tax Credit Program Office
    Credit Were                                                       uses current Fiscal Year 2010 data to
 Implemented, but                                                     develop performance measures targets for
   Development                                                        Fiscal Year 2011, which would provide
Processes Could Be                                                    better performance measures. Since the
     Improved                                                         final Fiscal Year 2009 results included one
                                                                      performance measure (Customer Service
    2010-21-057                                                       Representative Level of Service) that did not
                                                                      meet the Fiscal Year 2009 performance
   May 25, 2010                                                       measures targets for the Health Coverage
                                                                      Tax Credit Program, the TIGTA questions
    (continued)                                                       whether the IRS had sufficient and timely
                                                                      information to develop accurate
                                                                      performance measures targets with which to
                                                                      make risk-based decisions in the Health
                                                                      Coverage Tax Credit Program. Updating
                                                                      performance measures targets provides
                                                                      complete historical information needed for
                                                                      accurate rebaselining.

     The IRS Is        Finding: To comply with all aspects of the     The IRS agreed with our recommendation.
     Improving         Clinger-Cohen Act, the Strategy and            The Strategy and Capital Planning office
   Management          Capital Planning office should implement       will work with other appropriate offices to
    Controls for       additional processes.                          develop an information technology
    Information                                                       inventory of Modernization and Information
Technology Strategic   Recommendation: To ensure compliance           Technology Services applications that share
   Planning and        with the Clinger-Cohen Act, the Chief          benefits and costs with other Federal
Capital Investments    Technology Officer should require the          agencies or State or local governments.
                       Modernization and Information Technology
    2010-20-064        Services organization to identify              Status: Open. Due Date is
                       applications in the information technology     December 1, 2010.
    July 9, 2010       inventory that share benefits and costs with
                       other Federal agencies or State or local
                       governments.




                                                                                                         Page 41
                                        Annual Assessment of the
                                 Business Systems Modernization Program




  Report Title,
Reference Number,            Finding and Recommendation                             Corrective Action
     and Date

     The IRS Is        Recommendation: To ensure compliance             The IRS agreed with our recommendation.
     Improving         with the Clinger-Cohen Act, the Chief            The Strategy and Capital Planning office
   Management          Technology Officer should require the            will amend the Capital Planning and
    Controls for       Modernization and Information Technology         Investment Control process and guide
    Information        Services organization to establish a Capital     documents to include the collection of all
Technology Strategic   Planning and Investment Control process          appropriate information relative to
   Planning and        that identifies information technology           investments providing shared benefits.
Capital Investments    investments that share a benefit or cost with
                       other Federal agencies or State or local         Status: Open. Due Date is
    2010-20-064        governments. This process should include         April 1, 2011.
                       the costs to provide the benefit, the costs to
    July 9. 2010       be reimbursed by other agencies or State or
                       local governments, the role and
    (continued)        responsibilities these agencies have in
                       making decisions regarding the investment,
                       how these agencies will be notified and
                       impacted by changes to the investment, and
                       whether the agencies have a point of
                       contact to notify the IRS when the benefit
                       being provided is no longer required.
                       Finding: System errors and lower than
 System Errors and
                       expected tax return volumes affected the
Lower than Expected
                       implementation of the MeF system and the
Tax Return Volumes
                       ability to evaluate system performance.
 Hinder the Internal
 Revenue Service’s
                       Recommendation: The Commissioner,
 Ability to Evaluate
                       Wage and Investment Division, should
 the Success of the
                       establish processes to timely monitor the
 Modernized e-File
                       transmission and processing of individual
   Individual Tax
                       tax returns as tax returns are processed
 Return Processing
                       through the MeF system. These processes
                       should include an analysis of available tax
  TIGTA Audit #
                       return processing data to identify trends
    200940047
                       that may indicate errors in the rejection or
                       acceptance of tax returns. These processes
Draft Report Dated     should also include an analysis of the
  July 13, 2010        responses generated when a tax return is
                       rejected to ensure the explanation provided
                       is correct.




                                                                                                          Page 42
                                        Annual Assessment of the
                                 Business Systems Modernization Program




 System Errors and     Recommendation: The Commissioner,
Lower than Expected    Wage and Investment Division, should
Tax Return Volumes     work with Tax Return Transmitters and
 Hinder the Internal   States to identify and address concerns
 Revenue Service’s     and/or conditions that prevented them from
 Ability to Evaluate   participating in the MeF system and
 the Success of the    encourage them to participate in the MeF
 Modernized e-File     system during the 2011 Filing Season.
   Individual Tax
 Return Processing

  TIGTA Audit #
    200940047

Draft Report Dated
  July 13, 2010

    (continued)

The Federal Student    Finding: Improvements Are Needed in
  Aid Datashare        Several Systems Development
 Application Was       Disciplines
   Successfully
   Deployed, but       Recommendation: The Chief Technology
 Improvements in       Officer should ensure that the Test,
     Systems           Assurance, and Documentation System
   Development         Acceptability Test team use consistent,
  Disciplines Are      documented processes to generate a
      Needed           traceability matrix linking each requirement
                       to a test case.
  TIGTA Audit #
    200920031          Finding continued.

Draft Report Dated     Recommendation: The Chief Technology
   July 6, 2010        Officer should update Internal Revenue
                       Manual 2.6.1, Test, Assurance, &
                       Documentation Standards and Procedures,
                       to state that System Acceptability Test
                       results will be consistently recorded,
                       documented, and verified during test
                       execution.




                                                                          Page 43
                                     Annual Assessment of the
                              Business Systems Modernization Program




  Report Title,
Reference Number,         Finding and Recommendation       Corrective Action
     and Date

Additional Actions   Report Redacted
and Resources Are
Needed to Resolve
  the Audit Trail
   Portion of the
Computer Security
Material Weakness

   2010-20-082

Draft Report Dated
  June 22, 2010




                                                                               Page 44
                                      Annual Assessment of the
                               Business Systems Modernization Program



                                                                                              Appendix X

               Treasury Inspector General for
           Tax Administration Assessments of the
          Business Systems Modernization Program

Table 1 lists prior TIGTA assessments of the BSM Program issued since November 2001, along
with the associated concerns within the reports presented.
               Table 1: Prior TIGTA Assessments and Issues Reported
                               About the BSM Program

BSM Project Teams Need to Follow Key Systems Development Processes (Reference Number 2002-20-025,
dated November 16, 2001)

                      Project teams did not follow all critical systems development processes to help projects
                      meet objectives. Specifically, strengthening and/or implementing aspects of the
    2002-20-025       following key processes will increase the likelihood of BSM Program success:

 November 16, 2001        •    Requirements development (including Security requirements).
                          •    Configuration management.
                          •    Risk management.
                          •    Accounting for IRS costs associated with BSM Program.




                                                                                                        Page 45
                                            Annual Assessment of the
                                     Business Systems Modernization Program




Annual Assessment of the Internal Revenue Service’s Business Systems Modernization Program
(Reference Number 2002-20-189, dated September 27, 2002)

                           Although there will be many challenges ahead, we are guardedly optimistic about the
                           future of the BSM Program, assuming the Modernization Office and PRIME contractor1
                           effectively:
                                1.   Implement planned improvements in key management processes and commit
                                     necessary resources to enable success. Resources need to be committed to
                                     ensure that process changes are implemented. Without effective process change
                                     and defined accountability, the BSM Program could continue to experience cost
        2002-20-189                  increases and schedule delays, while delivering less than expected. Because the
                                     needed process maturity has not yet been achieved, the Modernization Office
    September 27, 2002               and PRIME contractor have had to rely on the dedication and heroics of their
                                     employees to deliver the successes that have been achieved to date.
                                2.   Manage the increasing complexity and risks of the BSM Program. Significant
                                     future risks include committing resources, implementing process changes,
                                     managing program complexity, and maintaining a consistent strategic direction.
                                3.   Maintain the continuity of strategic direction with experienced leadership.
                                     Changes in the executive leadership of the BSM Program could affect the
                                     success of the modernization efforts. It will be critical for the IRS to “stay the
                                     course” even in light of changes in the leadership of the organization.




1
    See Appendix XI for a glossary of terms.
                                                                                                                Page 46
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2003-20-208,
dated September 29, 2003)

                      The following concerns were expressed in this report:
                          •   Although the IRS refocused the Modernization Office on a smaller portfolio of
                              existing key projects the past year, noncompliance with existing management
                              processes (Testing and Cost and Schedule Estimation in particular) contributed
                              to deferred capabilities, schedule delays, and cost increases. The Modernization
                              Office and the PRIME contractor have particularly struggled to develop
                              adequate cost and schedule estimation techniques and have not fully
                              implemented disciplined project testing processes and procedures. Another
                              contributing factor for the unachieved program goals is that the BSM Program
    2003-20-208
                              has experienced significant leadership changes due to executive turnover.
September 29, 2003        •   Not only do the three Program challenges we reported last year in 2002 continue
                              to confront BSM Program efforts (and contributed to the problems encountered
                              in Fiscal Year 2003), but we also believe the Modernization Office now is facing
                              a 4th significant challenge, Contract Management. Because of the continued
                              problems confronting the BSM Program, oversight groups are starting to lose
                              confidence in the PRIME contractor’s ability to meet its commitments in
                              modernizing the IRS’ business systems and have raised concerns about future
                              funding. In light of this concern, effective contract management is becoming an
                              increasingly important challenge that needs to be overcome. Specifically, the
                              Modernization Office must ensure PRIME contractor performance and
                              accountability are effectively managed.




                                                                                                      Page 47
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2004-20-107,
dated June 3, 2004)

                      As we reported in previous annual assessments, BSM projects are still taking longer and
                      costing more to deliver less than originally anticipated.
                      Independent assessments of the BSM Program from other outside experts resulted in
                      21 recommendations for improvement, 15 of which are similar to those made in TIGTA
                      reports issued the past 3 years. Since many of the prior TIGTA recommendations have
                      resurfaced as part of the recent studies, we conclude that BSM weaknesses continue to
                      exist and that the IRS and its contractors need to complete planned corrective actions to
                      address the root causes identified.
                      Recent TIGTA reports continue to find significant areas for improvement, including
                      Business Case Development, Requirements Management, Software Testing, Transition
    2004-20-107       Planning, Business Continuity, Enterprise Architecture Compliance, and Contractor
                      Qualifications.
    June 3, 2004
                      Over the past 2 fiscal years, we cited 4 primary challenges the IRS and its contractors
                      must overcome to be successful:
                          1.   Implement planned improvements in key management processes and commit
                               necessary resources to enable success.
                          2.   Manage the increasing complexity and risks of the BSM Program.
                          3.   Maintain the continuity of strategic direction with experienced leadership.
                          4.   Ensure PRIME contractor performance and accountability are effectively
                               managed.
                      Based on the results of recent TIGTA audits, as well as the study findings, we believe
                      these four challenges still need to be met to achieve program success.




                                                                                                        Page 48
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102,
dated August 10, 2005)

                      Weaknesses continue to exist in critical program management and system development
                      processes of Requirements Management, Contract Management, Software Testing, and
                      Security Controls.
                      Analysis of cost estimates, schedules, and planned capabilities for ongoing project
                      releases showed a 48 percent increase in costs, schedule delays up to 14 months, and
                      deferred systems capabilities.
                      In January 2005, the IRS began taking over the role of systems integrator from the
                      PRIME contractor due to BSM Program funding reductions and concerns about the
                      PRIME contractor’s performance. In the IRS’ new operating model, the IRS will now be
                      responsible for program-level activities such as:
                          •    Systems integration.
                          •    Requirements Management/Validation.
                          •    Procurement administration.
                          •    Integrated Cost, Schedule, and Dependency Management.
    2005-20-102
                          •    Risk, Release, and Transition Management.
  August 10, 2005         •    Configuration and Change Management.
                          •    Enterprise Life Cycle Management and Enhancement.
                          •    Engineering.
                          •    Architecture.
                      The assumption of the integrator role by the IRS is recognized as a high-priority issue by
                      the BSM Program. Many of the high-priority issues revolve around program
                      management transition from the PRIME contractor to the IRS.
                      Although the Modernization Office recognized the need to improve program management
                      activities, the activities did not include actions to ensure they were adequately planned
                      and implemented. For example, the Modernization Challenges Plan identified program
                      actions needed to improve Modernization management; however, recommendations were
                      not fully addressed, a measurement plan was not created, and many actions were closed
                      before all significant activities were completed.
                      We recognize the IRS has taken a number of actions in response to our recommendations,
                      but recent audit findings show the four challenges we cited in the past three annual
                      assessments still exist.




                                                                                                        Page 49
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2006-20-102, dated
June 30, 2006)

                      The BSM Program still struggles to develop mature management capabilities and
                      implement defined and repeatable processes in the areas of Requirements Management,
                      Cost and Schedule Estimation, and Project Justification.
                      As a result, cost increases for projects grew to more than $86 million and schedule
                      variances slipped to as much as 30 months. Since breaking down releases into smaller
                      subreleases, the IRS and its contractors are doing better at meeting cost and schedule
                      estimates. However, some projects still encounter cost and schedule variances of greater
                      than 10 percent. In 2005, IRS executives—concerned the existing variance methodology
                      did not accurately depict variances—held meetings with the Government Accountability
                      Office and the TIGTA to discuss better ways of presenting cost and schedule estimates.
                      Based on these meetings, the IRS plans to use a different methodology to calculate and
                      present cost and schedule estimates in future Expenditure Plans.
                      The IRS is changing its approach from completely replacing current business systems to
                      using current business systems to accomplish modernization. Instead of scrapping and
                      replacing the capabilities of hundreds of current IRS systems, existing systems will
                      evolve into reusable services. While this approach differs from the BSM Program of the
                      past, we are unclear how the IRS will identify and leverage the strengths of existing
                      systems to achieve modernization goals. The new Modernization Vision and Strategy
    2006-20-102       being developed by the IRS may provide additional clarification in this area. The next
                      challenge for the IRS and its contractors will be to control significant cost and schedule
   June 30, 2006      variances and build upon its initial successes with smaller pieces of work to deliver the
                      BSM Program within expectations.
                      Although the IRS creates Highest Priority Initiatives every 6 months to address needed
                      improvements, the material weakness plan has not been updated to include open
                      corrective actions and improvement initiatives.
                      The IRS’ recent and planned future changes have not eliminated the four challenges we
                      have reported in prior annual assessments, and one of the challenges—ensure PRIME
                      contractor performance and accountability are effectively managed—has evolved and
                      expanded. This fourth challenge previously focused on the IRS’ ability to manage the
                      PRIME contractor’s performance. Since the IRS is taking over the primary role of
                      systems integrator, this challenge has expanded to include not only managing and
                      ensuring the performance and accountability of the PRIME contractor, but also managing
                      and ensuring the performance and accountability of all modernization contractors.
                      Therefore, we eliminated the reference to the “PRIME” contractor for this challenge, now
                      simply referred to as “Ensure contractor performance and accountability are effectively
                      managed.”
                      The IRS is at a juncture where it can build upon the successes and lessons learned from
                      the first 8 years of the BSM Program; however, we continue to believe the eventual
                      success of the modernization effort will depend on how well the IRS deals with the four
                      specific challenges.




                                                                                                        Page 50
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2007-20-121,
dated August 24, 2007)

                      Although the IRS has made advances in its modernization effort, it has not maintained
                      anticipated progress. Because of decreased funding and difficulties in managing
                      contractor work, the four prior challenges we have reported continue to exist. For
                      instance, during Calendar Year 2006, the management process improvements we reported
                      were in areas of: Requirements Management, Transition Management, Contract
                      Management, Contract and Project Performance monitoring, and Post Implementation
                      Reviews.
                      Moreover, this annual assessment noted the high turnover rate of executive leadership.
                      The Chief Information Officer hired in September 2006 became the IRS’ fifth such
                      Officer in 8 years; and the current Associate Chief Information Officer, Applications
                      Development, was appointed a month later and became the sixth executive responsible
                      for the BSM Program in its 9 years of existence. In addition, the Modernization and
                      Information Technology Services organization changed the governance roles of the
                      Enterprise Governance Investment Management committee and established an Executive
                      Advisory Board. The continual changes in management add to the time and cost of
    2007-20-121       delivering the BSM Program.
                      Although the Modernization and Information Technology Services organization has taken
  August 24, 2007
                      actions to improve its effectiveness and efficiency, the Modernization material weakness
                      should not be downgraded until the four challenges have been adequately resolved.
                      Recommendation: The Chief Information Officer should continue to address the
                      BSM Program corrective actions from TIGTA and Government Accountability Office
                      reports through the Highest Priority Initiatives process. By focusing corrective action
                      efforts through this process, the IRS can begin to achieve resolution of the challenges
                      identified in this report and subsequently address downgrading the Modernization
                      material weakness.
                      Management Response: The Chief Information Officer agreed with this
                      recommendation. Corrective actions are evaluated and submitted as Highest Priority
                      Initiatives candidates, when appropriate, and are selected based upon executive leadership
                      discretion. In this manner, the IRS will continue to execute the Highest Priority
                      Initiatives process and include BSM Program corrective actions from TIGTA and
                      Government Accountability Office reports. The IRS will continue to deliver monthly
                      Highest Priority Initiatives reports until it is able to downgrade the Modernization
                      material weakness.




                                                                                                        Page 51
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2008-20-129,
dated June 24, 2008)

                      Since July 2007, the IRS has implemented further capabilities and provided
                      improvements. These successes include deploying new releases for the CADE, MeF, and
                      Account Management Services projects. The BSM Program has also improved contract
                      negotiations and management practices, assumed more responsibility for Program
                      integration, expanded the Information Technology Modernization Vision and Strategy,
                      and continued addressing organizational and Program concerns through the
                      Highest Priority Initiatives process.
                      While steady progress and improvements have been made, the IRS and its contractors
                      must still overcome significant barriers in successfully implementing Program goals.
                      These barriers include:
                          •   Continued reductions in funding that have forced the IRS to adjust the scope of
                              the BSM Program portfolio and project release schedules. In some instances,
                              management has had to defer or even forgo project capabilities because
    2008-20-129               sufficient funding was not available.

   June 24, 2008          •   Inconsistent adherence to established project development guidelines that has
                              limited the effectiveness and growth of the BSM Program. Our audits during
                              this time period found that the BSM Program did not consistently implement
                              Enterprise Life Cycle guidelines, including Project Management and
                              Requirements Management activities. Also, ineffective Contract Management
                              contributed to delays, inadequacies, and increased costs of deliverables.
                      In contrast, the IRS achieved success when the BSM Program followed its systems
                      development and management guidance. The success we reported with one project was
                      attributed to the project team following Enterprise Life Cycle guidelines, developing
                      required work products, completing detailed release designs on time, and formulating a
                      manageable scope.
                      However, the IRS and its contractors must overcome significant barriers in successfully
                      implementing the goals of the BSM Program. The Program and processes have not
                      progressed enough to eliminate its material weakness designation, and further reductions
                      in funding could jeopardize the Program’s ability to deliver planned improvements.




                                                                                                      Page 52
                                      Annual Assessment of the
                               Business Systems Modernization Program




Annual Assessment of the Business Systems Modernization Program (Reference Number 2009-20-136,
dated September 14, 2009)

                      The BSM Program is being refocused. At the time of this annual assessment, the
                      immediate challenge was the future of the CADE system. The IRS Program Integration
                      Office was considering using elements from the Individual Master File and the current
                      CADE system to significantly reengineer the IRS tax account management process. In
                      addition, the challenge in modernizing the management of business taxpayer accounts
                      had yet to be considered. Further, we reported that the ability to obtain qualified
                      technical resources and sufficient funding will challenge the successful delivery of future
                      CADE releases.
                      Further improvements can be made to management of the BSM Program:
                          •    The past year’s BSM Program performance did not continue the trend of
                               improvement it demonstrated in the prior 3 years. Our reports the past year
                               identified continued problems in Requirements Development and Management,
                               Program Management, Contract Management, and Security Controls.
                          •    The IRS has also experienced a turnover of executives that challenges the
                               Program’s continued long-term success.
    2009-20-136           •    Since our 2008 annual assessment (from May 2008 to May 2009),
                               5 (29 percent) of the 17 project milestones scheduled for completion were
September 14, 2009             significantly over cost estimates. These projects were between 30 percent and
                               37.5 percent over budget.
                      A control process to manage the Modernization and Information Technology Services
                      (MITS) organization’s Highest Priority Initiatives process was discontinued. At the
                      conclusion of this annual assessment, the Customer Relationship and Service Delivery
                      organization was developing processes to be used to replace the Highest Priority
                      Initiatives process. The MITS organization was focusing on process improvements
                      throughout the organization using industry best practices. The MITS Leadership team
                      determined that would provide a more comprehensive, integrated, disciplined, and
                      effective management approach for process improvements than the previous Highest
                      Priority Initiatives process.
                      Since 1995, the IRS has identified and reported the BSM Program as a material
                      weakness. The IRS recognizes the need to incorporate necessary program management
                      disciplines and has plans to implement a process improvement strategy. This strategy
                      will allow the BSM Program to continue to improve its management practices by
                      incorporating industry best practices. However, we believe the BSM Program should
                      continue as a material weakness until the modernization material weakness action plan is
                      updated and the improvement strategy is accomplished.




                                                                                                         Page 53
                                     Annual Assessment of the
                              Business Systems Modernization Program



                                                                                         Appendix XI

                               Glossary of Terms

            Term                                               Definition
Account Management Services A project that will modernize the capability to collect, view,
                            retrieve, and manage taxpayer information.
Best Practice                    A technique or methodology that, through experience and
                                 research, has proven to reliably lead to a desired result.
Byte                             A byte is commonly used as a unit of storage measurement in
                                 computers, regardless of the type of data being stored. It is
                                 also one of the basic integral data types in many programming
                                 languages. Generally, a byte is a contiguous sequence of eight
                                 binary digits.
                                                               Popular Use and
                                                              Standard Meaning

                                                   Name           Symbol    Quantity

                                                   kilobyte         KB       210 (103)

                                                   megabyte         MB       220 (106)

                                                   gigabyte         GB       230 (109)

                                                   terabyte         TB      240 (1012)


Capital Asset Plan and           Required by Office of Management and Budget Circular A-11
Business Case (Exhibit 300)      (Preparation, Execution, and Submission of the Budget; dated
                                 June 2005) and commonly called Exhibit 300, Capital Asset
                                 Plan and Business Case. Each agency must submit a
                                 Business Case twice a year for each major information
                                 technology investment.




                                                                                              Page 54
                                  Annual Assessment of the
                           Business Systems Modernization Program




            Term                                          Definition
Customer Account Data          The foundation for managing taxpayer accounts in the IRS
Engine (CADE)                  modernization plan. It will consist of databases and related
                               applications that will replace the existing IRS Master File
                               processing systems and will include applications for daily
                               posting, settlement, maintenance, refund processing, and issue
                               detection for taxpayer tax account and return data.
Customer Account Data          Creates a modernized processing and data–centric
Engine 2 (CADE 2)              infrastructure that will enable the IRS to improve the accuracy
                               and speed of individual taxpayer account processing, enhance
                               the customer experience through improved access to account
                               information, and increase the effectiveness and efficiency of
                               agency operations.
Data Strategy Implementation   An initiative for implementing the data strategies that define
Program                        the Enterprise Data Architecture, define the current and future
                               data requirements, reduce or eliminate data duplication within
                               the enterprise, provide solutions for information access and
                               sharing, support interoperability among information systems,
                               and support IRS business goals.
Enterprise Computing Center    Supports tax processing and information management through
                               a data processing and telecommunications infrastructure.
Enterprise Data Access         An Extensible Markup Language Relational Database and
Program                        Integrated Production Model. The Extensible Markup
                               Language Relational Database became operational in Fiscal
                               Year 2006 and provides the IRS Tax Exempt and Government
                               Entities Division with electronically filed business returns in a
                               relational database that captures and associates data using
                               common attributes. The Integrated Production Model will
                               provide a consolidated database of tax return and account data
                               in a single repository for compliance data used in the case
                               selection processes.
Enterprise Life Cycle          A structured business systems development method that
                               requires the preparation of specific work products during
                               different phases of the development process.




                                                                                        Page 55
                                      Annual Assessment of the
                               Business Systems Modernization Program




             Term                                           Definition
Executive Steering Committee      Oversees investments, including validating major investment
                                  business requirements and ensuring that enabling technologies
                                  are defined, developed, and implemented.
Filing Season                     The period from January through mid-April when most
                                  individual income tax returns are filed.
Highest Priority Initiatives      A process IRS executives and managers used to identify and
Process                           seek resolution for the most significant issues facing the
                                  Modernization Program. IRS executives and senior managers
                                  were appointed to oversee the plans to resolve each of the
                                  Highest Priority Initiatives, and progress was reported
                                  monthly. New initiatives were identified every 6 months.
Information Technology            A 5-year plan that drives investment decisions, addresses the
Modernization Vision and          priorities around modernizing frontline tax administration and
Strategy                          supporting technical capabilities, and leverages existing
                                  systems (where possible) and new development (where
                                  necessary) to optimize capacity, manage program costs, and
                                  deliver business value on a more incremental and frequent
                                  basis.
Infrastructure                    The fundamental structure of a system or organization. The
                                  basic architecture of any system (electronic, mechanical,
                                  social, political, etc.) determines how it functions and how
                                  flexible it is to meet future requirements.
Integrated Data Retrieval         The IRS computer system capable of retrieving or updating
System                            stored information; it works in conjunction with a taxpayer’s
                                  account records.
Integrated Production Model       A consolidated source of core taxpayer data (e.g., tax account,
                                  tax return, and third-party data) and business application data
                                  to be used by a wide range of business applications to support
                                  case identification, selection, prioritization, and delivery.




                                                                                          Page 56
                                          Annual Assessment of the
                                   Business Systems Modernization Program




               Term                                                    Definition
IRS Oversight Board                     The nine-member board was created by Congress under the
                                        IRS Restructuring and Reform Act of 1998.2 The Board’s
                                        responsibility is to oversee the IRS in its administration,
                                        management, conduct, direction, and supervision of the
                                        execution and application of the internal revenue laws.
Item Tracking Reporting and             An information system used to track and report on issues,
Control System                          risks, and action items in the modernization effort.
Master File                             The IRS database that stores various types of taxpayer account
                                        information. This database includes individual, business, and
                                        employee plans and exempt organizations data.
Material Weakness                       Office of Management and Budget Circular A-123,
                                        Management’s Responsibility for Internal Control, dated
                                        December 2004, defines a material weakness as any condition
                                        an agency head determines to be significant enough to be
                                        reported outside the agency.
Milestone                               The “go/no-go” decision point in a project and is sometimes
                                        associated with funding approval to proceed.
MITRE Corporation                       The IRS hired the MITRE Corporation as a Federally Funded
                                        Research and Development Center to assist with the IRS’
                                        systems modernization effort.
Modernized e-File (MeF)                 The modernized, web-based platform for filing approximately
                                        330 IRS forms electronically.
My IRS Account                          This project was intended to provide taxpayers with an online
                                        application to view, access, update, and manage their tax
                                        accounts.
Plan of Action and Milestones           A requirement for managing the security weaknesses
                                        pertaining to a specific application or system. In addition to
                                        noting weaknesses, each Plan of Action and Milestones item
                                        details steps that need to be taken to correct or reduce any
                                        weaknesses, as well as resources required to accomplish task
                                        milestones and a correction timeline.


2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 57
                                   Annual Assessment of the
                            Business Systems Modernization Program




             Term                                          Definition
PRIME Contractor                 The Computer Sciences Corporation, which heads an alliance
                                 of leading technology companies brought together to assist
                                 with the IRS’ efforts to modernize its computer systems and
                                 related information technology.
Relational Database              A database that captures data using common attributes found
                                 in the data set.
Release                          A specific edition of software.
Software Engineering Institute   A Federally funded research and development center operated
                                 by Carnegie Mellon University and sponsored by the
                                 Department of Defense. Its objective is to provide leadership
                                 in software engineering and in the transition of new software
                                 engineering technology into practice.
Task Order                       An order for services planned against an established contract.
Work Breakdown Structure         A deliverable-oriented grouping of project elements that
                                 organizes and defines the total scope of the project.




                                                                                         Page 58
                 Annual Assessment of the
          Business Systems Modernization Program



                                              Appendix XII

Management’s Response to the Draft Report




                                                    Page 59
